m
IN THE SUPREME COURT OF THE STATE OF DELAWARE
LILY TERRO-EDMON*
v.
TRAVIS EDMON,

§
§
§
§
§
§
§
§
§
§
§

No. 134, 2019
Court Below: Family Court
of the State of Delaware
File No. CN13-04089
Petition No. 18-38235

The following docket entry has been efiled in the above cause.

March 12, 2020

cc:

Record and mandate to Clerk of
Court Below. Case Closed.

The Honorable Janell S. Ostroski
Ms. Lisa Tenaglia-Evans
Mr. Thomas J. Evans

Family Court Clerk
Received Above
By
Date

Date: March 12, 2020
/s/ Lisa A. Dolyh
_____
Clerk of the Supreme Court
* By Order dated March 27, 2019, the Court assigned a pseudonyms to the
appellant and minor child, pursuant to Supreme Court Rule 7(d).

MANDATE

THE SUPREME COURT OF THE STATE OF DELAWARE
TO:

Family Court of the State of Delaware in and for New Castle County

GREETINGS:
WHEREAS, in the case of:
Lisa Tenaglia-Evans v. Thomas J. Evans
File No. CN13-04089
Petition No. 18-38235

a certain judgment or order was entered on the 25th day of February 2019, which
reference is hereby made; and WHEREAS, by appropriate proceedings the
judgment or order was duly appealed to this Court, and after consideration have
been finally determined, as appears from the Orders dated February 20, 2020
and March 12, 2020, a certified copy of which is attached hereto;
ON CONSIDERATION WHEREOF IT IS ORDERED AND
ADJUDGED that the orders or judgments be and is hereby AFFIRMED.

/s/ Lisa A. Dolph________
Clerk of the Supreme Court
Issued: March 12, 2020
Supreme Court No. 134, 2019

T

EFiled: Mar 12 2020 08:21 A
Filing ID 64821338
i
Case Number 134,2019
'

IN THE SUPREME COURT OF THE STATE OF DELAWARE
LILY TERRO-EDMON, i
Petitioner Below,
Appellant,
v.
TRAVIS EDMON,
Respondent Below,
Appellee.

§
§
§
§
§
§
§
§
§
§
§

No. 134, 2019
Court Below—Family Court
of the State of Delaware
File No. CN13-04089
Petition No. 18-38235

Submitted: March 5, 2020
Decided:
March 12, 2020
Before SEITZ, Chief Justice; VALIHURA, VAUGHN, TRAYNOR, and
MONTGOMERY-REEVES, Justices, constituting the Court en Banc.
ORDER
This 12th day of March, 2020, the Court having carefully considered the
motion for rehearing en Banc filed by appellant and it appears that the motion for
rehearing en Banc is without merit and should be denied.
NOW, THEREFORE, IT IS ORDERED that the motion for rehearing en
Banc is DENIED.
BY THE COURT:
/s/ Collins J. Seitz, Jr.
Chief Justice

The Court previously assigned pseudonyms to the parties under Supreme Court Rule 7(d).

EFiled: Feb 20 2020 08:11 A!
Filing ID 64742986
i
Case Number 134,2019
'

IN THE SUPREME COURT OF THE STATE OF DELAWARE
LILY TERRO-EDMON, i

§

§ No. 134,2019
Petitioner Below,
Appellant,

§

v.

§

§ Court Below—Family Court
§ of the State of Delaware
§ File No. CN13-04089
§ Petition No. 18-38235

TRAVIS EDMON,
Respondent Below,
Appellee.

§
§
§

Submitted: December 20, 2019
Decided: February 20, 2020
Before SEITZ, Chief Justice; VAUGHN, and TRAYNOR, Justices.
ORDER
After consideration of the parties’ briefs and the record below, it appears to
the Court that:
(1)

The petitioner below-appellant, Lily Terro-Edmon (“the Wife”), filed

this appeal from a Family Court order, dated February 25, 2019, denying her motion
for modification of alimony. We find no error or abuse of discretion in the Family
Court’s decision. Accordingly, we affirm the Family Court’s judgment.
(2)

The Wife and the respondent below-appellee, Travis Edmon (“the

Husband”), were married on August 2, 2001, separated on October 31, 2012, and

The Court previously assigned pseudonyms to the parties under Supreme Court Rule 7(d).

divorced on September 12, 2013.

They resolved ancillary matters, including

alimony, in a stipulation and order dated January 13,2014 and entered by the Family
Court on January 23,2014 (“Stipulation and Order”). Both parties were represented
by counsel in connection with the Stipulation and Order.
(3)

Under the Stipulation and Order, the Husband agreed to pay the Wife

$850 in monthly alimony for five years beginning on January 20, 2014. The
Husband’s alimony obligation was not subject to any upward or downward
modification unless he was ordered to pay the Wife child support, in which case his
monthly alimony obligation would be reduced by the amount of his monthly child
support obligation. The Stipulation and Order further provided that no modification
or waiver was effective unless there was a formal writing signed by both parties and
subject to court approval.
(4)

On December 30,2015, the Wife filed a motion to set aside the divorce

judgment. She alleged that the Husband committed perjury and fraud by concealing
assets from her. The Family Court denied the motion, finding that the Wife refused
to provide notice of her motion to the Husband. The Wife filed a motion for
reconsideration, which the Family Court denied on the basis that the notice
requirements were not met. The Wife filed additional motions for reconsideration,
which the Family Court denied. The Wife did not appeal the Family Court’s denial
of her motions.
2

k.

(5)

On December 27, 2018, the Wife filed a motion for modification of

alimony.

She alleged that there had been a real and substantial change in

circumstances because her disability income was reduced after her son turned
eighteen. She also alleged that the Husband and his counsel had violated their
discovery obligations and concealed assets from her. According to the motion, the
Wife signed the Stipulation and Order, despite having knowledge of the Husband’s
concealment of some assets, because she felt stressed and pressured. The Husband
opposed the motion.
(6)

After converting the Wife’s motion into a petition, the Family Court

dismissed the petition. The Family Court found that many of the Wife’s claims were
previously resolved and therefore barred by the doctrine of res judicata. As to the
Wife’s request for modification of alimony based on a real and substantial change
in circumstances under 13 Del. C. § 1519(a)(4), the Family Court held that
§ 1519(a)(4) did not apply in light of the Stipulation and Order.

This appeal

followed.
(7)

This Court’s review of a Family Court decision includes a review of

both the law and the facts.2 Conclusions of law are reviewed de novo? Factual
findings will not be disturbed on appeal unless they are clearly erroneous.4

2 Mundy v. Devon, 906 A.2d 750, 752 (Del. 2006).
3 Id.
4 Id.

3

r
(8)

The Wife’s arguments on appeal may be summarized as follows: (i) the

Family Court erred in denying her December 2015 motion to set aside the divorce
and her subsequent motions for reconsideration; and (ii) she is entitled to relief based
on her permanent disability during the marriage and after the divorce and the
Husband’s concealment of assets.
(9)

Having carefully considered the parties ’ positions and the record below,

we conclude that the Family Court did not err in denying the Wife’s petition for
modification of alimony. First, the Wife’s challenges to the Family Court’s 2016
orders denying her motions are untimely.5 The Wife could have appealed those
orders, but did not do so.
(10)

Second, the Family Court did not err in concluding that the Wife was

not entitled to modification of alimony based on a real and substantial change in
circumstances under § 1519(a)(4). As the Family Court recognized, this Court held
in Rockwell v. Rockwell6 that an alimony agreement like the Stipulation and Order
is governed by contract principles, not the “real and substantial change” standard in
§ 1519(a)(4). The Wife, whose motion for modification of alimony reflects that she
was permanently disabled during the marriage and believed the Husband was

5 Supr. Ct. R. 6(a)(i) (requiring appeal from civil order to be filed within thirty days after entry of
the order upon the docket).
6 681 A.2d 1017 (Del. 1996).

4

V

concealing certain assets before she signed the Stipulation and Order, did not state a
contractual basis to undo the Stipulation and Order.
(11) Finally, the Wife argues that the Family Court should have reopened
the Stipulation and Order under Family Court Civil Rule 60(b)(2) (relief from a
judgment based on newly discovered evidence) and 60(b)(6) (relief from a judgment
for any other justifying relief). The Wife did not raise Rule 60(b) in her motion for
modification of alimony in the Family Court. Absent plain error, which we do not
find here, we will not consider the Wife’s Rule 60(b) arguments for the first time on
appeal.7
NOW, THEREFORE, IT IS ORDERED that the judgment of the Family
Court is AFFIRMED.
BY THE COURT:
/s/ Collins J. Seitz, Jr.
Chief Justice

7 Supr. Ct. R. 8. We note that the newly discovered evidence appears to consist of documents the
Wife found before 2016.

5

i

«■

.

;i

STATE OF DELAWARE

}
} ss.

KENT COUNTY

}

I, Lisa A. Dolph, Clerk of the Supreme Court of the State of Delaware, do
hereby certify that the foregoing is a true and correct copy of the Orders dated
February 20, 2020 and March 12, 2020, in Lily Terro-Edmon v. Travis
Edmon, No. 134,2019, as the same remains on file and of record in said Court.

IN TESTIMONY WHEREOF,
I have hereunto set my hand and affixed the
seal of said Court at Dover this 12th day of
March A.D. 2020.
/s/ Lisa A. Dolph
Clerk of the Supreme Court

EFiled: Apr 0§ 2019 07:56A
Filing ID 63146810
Case Number 134,2019

IN THE SUPREME COURT OF THE STATE OF DELAWARE

LILY TERRO-EDMON,
Petitioner Below,
Appellant,
v.

TRAVIS EDMON,
Respondent Below,
Appellee.

§

§

No. 134,2019

§
§
§
§
§

Court Below-Family Court
of the State of Delaware
in and for New C&stfe County

§
§

File No. CN13-04089
Petition No. 18-38235

f/

(
(

§
§

ORDER
This 9th day of April, 2019, upon consideration of appellant’s motion for leave
to proceed in forma pauperis, IT IS HEREBY ORDERED that appellant be
GRANTED leave to proceed in forma pauperis, limited only to waiver of the
docketing deposit required by Supreme Court Rule 20(a).

BY THE COURT:
/s/ Collins J. Seitz, Jr.
Justice

L

Jay H. Conner
Judge

New Castle County Courthouse
500 N. King Street, Suite 9400
Wilmington, Delaware 19801-3732

June 13, 2016
Lisa Tenaglia Evans
122 Kenmark Road
Newark, DE 19713
LETTER DECISION
AND ORDER
Clifford B. Hearn, Esquire
326 E. Main Street
P.O. Box 776
Middletown, DE 19709
RE:

Thomas J. Evans v. Lisa Tenaglia Evans
File No. CN13-04089, Petition No. 13-24221
Motion for Explanation & Reconsideration

Before the HONORABLE JAY H. CONNER, JUDGE of the Family Court of the
State of Delaware:
The Court has received a fourth Motion from Ms. Tenaglia Evans for
Reconsideration of the denial of her motion to set aside a divorce agreement and Order
entered in this Court on January 23, 2014, when both parties were represented by
counsel. The initial Motion to Set Aside the Divorce Judgment was not filed until
December 30, 2015, almost two (2) years from the entry of the divorce agreement and
Order. When considering the previous motions, the Court believed that the one (1) year
eleven (11) month delay in filing was so obvious on its face that no explanation was
needed. Such a delay is clearly untimely in light of the fact that there must be finality to
divorce proceedings so that each party may move on with their separate financial lives.

PtPPWOtk

•tr ^
-»»y.

M

Lisa Tenaglia Evans
Clifford B. Hearn, Esquire
June 13, 2016

RE:

Motion for Explanation & Reconsideration
File No. CN13-04089, Petition No. 13-24221

Due to Ms. Tenaglia Evans request, the Court will amplify the rulings of untimely in this
fourth Motion for Reconsideration, even though the Motion itself is extremely
duplicitous.
There does exist the legal doctrine of “laches”, which requires the denial of
Motions to Reopen proceedings when there is unreasonable delay and prejudice to the
opposing party. As noted, a delay of almost two years is clearly unreasonable on its
face. Any opposing party in a divorce proceeding would be prejudiced as they have
moved on with their financial lives two years after the finality of the divorce litigation. '
The Supreme Court of the State of Delaware has stated many times that “finality” is of
the utmost importance in divorce proceedings.
This fourth Motion for Reconsideration must be denied. The divorce proceeding
between these parties has been closed since January 23, 2014, and must remain so.
IT IS SO ORDERED.

Jay H. (former, Judge
cc:

File

2

Form 193
Rev02/14

The Family Court of the State of Delaware
In and For £><] New Castle □ Kent □ Sussex County

)
)
)
)
).
)
)

Lisa Tenaglia-Evans
Petitioner

v.
Thomas J. Evans
Respondent

File No.:

CN13-04089

Petition No.:

13-24221

In Re:

Motion to Set Aside Divorce
Judgment

)
)

ORDER
Having considered the request of the movant,
IT IS SO ORDERED, this date:

Lisa Tenaglia-Evans

02/26/16

That the Motion to Set Aside Divorce Judgment must be denied and all attachments
returned to Ms. Tenaglia-Evans for failure to send notice of Motion to Clifford Hearn,
Esquire, Attorney- of- Record for Thomas Evans, or to the litigant himself. Court staff
advised that they informed Ms. Tenaglia-Evans of requirement to mail notice and she
refused to do so.
The Court, on February 4, 2016, previously denied her request to consider the Moton on an
exparte basis. Thus, the Court can only consider this or any Motion after the opposing
party, or his attorney, if represented, has had an opportunity to review the application and
respond thereto.

'W;

(

\

n

/JUDGE JAY H. CONNER

CC: [3 Petitioner □ Respondent □ Petitioner Attorney □ Respondent Attorney □ DAG □ PD
□ Other ____________________ _____
□ DCSE
□ FC.Appointed.Attorneys@state.de. us

)ATE MAILED:

=2JjJe//Ip

Form 653
(Rev. 11/11)

The Family Court ||f |he State of Delaware
In and For □ New Castle'CTKerit □ Sussex County
EMERGENCY EX PARTE ORDER

!
j

Petitioner

Pro
Petitioner’s Attorney
v.
T% /mu J ■ -BvartS
Respondent

)
)
)
)

File No.:

)

Petition No.:

)
)

In the interest of:

PjU

D.O.B.
D.O.B.
D.O.B.

)
)
)

Respondent’s Attorney

Upon consideration of the Motion and affidavit(s) of the Movant alleging the prospect of immediate
and irreparable harm, and pursuant to Family Court Civil Rule 65.2(a), the Court hereby finds that:

Accordingly, IT IS SO ORDERED that the Motion is:
l~1

Granted. Temporary custody/guardianship of the above child(ren) is granted to the Movant.

□

Granted. Temporary custody/guardianship of the above child(ren) is granted to the Division of
Family Services. The court hereby finds that such placement is in the best interest of the
child(ren) and that reasonable efforts were made under the circumstances to prevent removal
from the home.
Denied. The underlying action will proceed in the usual course of business.

□

before Judge/Commissioner
, at
A hearing on the Motion will be held on
/ /
_________________ ___________ for which 30 minutes has been allotted. This may be your
only notice of the hearing. Not appearing risks an adverse ruling. The Family Court is located
□500 N. King Street, Wilmington, DE 19801
at:
□400 Court Street, Dover, DE 19901
□22 The Circle, Georgetown, DE 19947

□ Other:

/

DATE:

^ y./ Iqil

7
idge

CC:

^Petitioner; □Petitioner’s Attorney; ^Respondent; (^Respondent's Attorney; @File; DDFS;

Do,her: uaujie# ^l>y

Additional material
from this filing is
available in the
Clerk's Office.

